                                                   Office of Inspector General

                                                   Federal
                                                   Communications
                                                   Commission




                                        Semiannual Report to Congress
    Office of Inspector General
Federal Communications Commission
          Portals II Building       April 1, 2009 through September 30, 2009
   445 12th St., S.W. Room 2-C762
                                                               Report Fraud, Waste or Abuse to:



                                                                                  Email
                                                                                  Hotline@FCC.gov

                                                                                  Call Hotline:
                                                                                  202.418.0473 or
                                                                                  888.863.2244




                                                                                  www.FCC.gov


           The Federal Communications Commission
                         (left to right)
Mignon Clyburn, Commissioner; Michael J. Copps, Commissioner
     Julius Genachowski, Chairman; Robert M. McDowell,
    Commissioner, Meredith Attwell Baker, Commissioner
                                                                   COVER LETTER
OFFICE OF INSPECTOR GENERAL

DATE:		         October 30, 2009

TO:		           Chairman, Federal Communications Commission

From:		         Acting Inspector General

SUBJECT:	       Semiannual Report to Congress


In accordance with Section 5 of the Inspector General Act of 1978, as amended, 5 U.S.C. App. 3 §5 (“the Inspector
General Act”), I have attached my report summarizing the activities and accomplishments of the Office of Inspector
General (“OIG”) during the six-month period ending September 30, 2009. In accordance with Section 5(b) of that
Act, it would be appreciated if this report, along with any associated report that you prepare as Chairman of the Federal
Communications Commission (“FCC”), were forwarded to the appropriate Congressional oversight committees within
30 days of your receipt of this report.

During this reporting period, OIG activity focused on the traditional IG functions of investigations and audits,
including matters related to the FCC’s Universal Service and Telecommunications Relay Services programs. This
report describes audits that are in process, as well as those that have been completed during the preceding six months.
OIG investigative personnel continued to address issues referred to, or initiated by, this office. Where appropriate,
investigative and audit reports have been forwarded to the Commission’s management for action.

This report covers a period of transition in which we continue to reassess - and where appropriate adjust - the OIG’s
priorities and role related to the activities of various agency programs and operations. For example, one issue addressed
in this report is the return to the Office of the Managing Director the responsibilities and duties under the Improper
Payments Information Act of 2002. During the prior three-year period, a significant number of audits were conducted
by Universal Service Administrative Company as directed by this Office. While these audits garnered much-needed
data, several initial erroneous payments rate determinations made by this Office now appear to be overstated by
varying amounts. This Office is evaluating its initial published erroneous payment rates and hopes to comment further
soon. Continuing efforts to maximize the benefits of those audits include a data-mining program to evaluate the data
obtained, a first for this Office, and re-examining select audits.

This Office remains committed to maintaining the highest possible standards of professionalism and quality in its
audits, investigations, inspections and consultations and we welcome any comments or suggestions that you might
have. Please let me know if you have any questions or comments.




								                                                        David L. Hunt
								                                                        Acting Inspector General

Enclosure
cc: FCC Chief of Staff
    FCC Managing Director
 Table of Contents
INTRODUCTION                                                             3

OIG MANAGEMENT ACTIVITIES                                                5
  Office Staffing                                                        6
  Office Modernization                                                   7
  Internship Program                                                     9
  Legislative and Policy Matters                                         9

AUDIT ACTIVITIES                                                        11
  Financial Audits                                                      12
  Performance Audits                                                    12
  Universal Service Fund (“USF”) Oversight                              18

INVESTIGATIONS                                                          29
  Activity During This Period                                           32
  Significant Actions                                                   32
  OIG Hotline                                                           43

REPORTING REQUIREMENTS OF THE
                                                                        45
INSPECTOR GENERAL ACT
   Reporting Requirements                                               46
  OIG Reports With Questioned Costs                                     48
  OIG Reports With Recommendations That
                                                                        48
  Funds Be Put To Better Use



 FCC OIG - Semiannual Report to Congress   2   April 1, 2009 - September 30, 2009
                                                   Introduction
  The Federal Communications Commission                Universal Service Fund Oversight; Thomas C.
  (“FCC” or “Commission”) is an independent            Cline, AIG for Policy and Planning; Harold
  regulatory agency, with authority delegated          Shrewsberry, AIG for Management and Carla
  by Congress to regulate interstate and foreign       Conover, Deputy AIG for Investigations. Mr.
  communications by radio, television, wire,           Hunt is also AIG for Investigations.
  satellite and cable. The FCC’s jurisdiction
  covers the fifty states, the District of Columbia,   This semiannual report discusses the major
  the Commonwealth of Puerto Rico and all U.S.         accomplishments and activities of the OIG
  territories.                                         from April 1, 2009 through September 30,
                                                       2009, as well as information on the IG’s goals
  The FCC consists of a Chairman and four              and future plans.
  Commissioners, who are appointed by the
  President and confirmed by the United States
  Senate. Julius Genachowski serves as Chairman.
  Michael J. Copps, Robert M. McDowell,
  Mignon Clyburn, and Meredith Atwell Baker
  serve as Commissioners. Most of the FCC’s
  employees are located in Washington, D.C. at
  the Portals II building, which is located at 445
  12th St., S.W., Washington, D.C. Field offices
  and resident agents are located throughout
  the United States.

  The Office of the Inspector General (“OIG” or
  “Office”) is dedicated to ensuring compliance
  with the requirements of the Inspector General
  Act of 1978, as amended 5 U.S.C. App 3 (the
  “Inspector General Act”), and assisting the
  Chairman in his continuing efforts to improve
  the effectiveness and efficiency of the FCC.
  The former Inspector General (“IG”), Kent
  R. Nilsson, retired on June 3rd, 2009. The
  Acting IG, David L. Hunt, reports directly
  to the Chairman. The IG’s staff consists of
  attorneys, auditors, economists, investigators,
  management       specialists   and     support
  personnel. Principal assistants to the IG are:
  William K. Garay, Assistant Inspector General
  (“AIG”) for Audits; Gerald T. Grahe, AIG for


FCC OIG - Semiannual Report to Congress                3           April 1, 2009 - September 30, 2009
OIG Management
    Activities
       OFFICE staffing

    office modernization

    internship program

 legislative & Policy matters
            OIG Management Activities
               Office Staffing
                                                       Our professional staff consists of well-trained,
The Office has adequate personnel to meet the          experienced professionals, most of whom have
current objectives of the Inspector General Act.       one or more professional certifications. In our
OIG is now comprised of 39 professionals,              continuing efforts to increase the expertise
four support personnel and two interns.                of our auditors, attorneys and investigators,
Additional personnel may be required in                members of this office have attended classes at
the future to meet the increasing demands              the Federal Law Enforcement Training Center
that are being placed on this Office as the            (“FLETC”), the Inspector General Criminal
Commission’s programs increase in size, scope          Investigative     Academy,      other    Inspectors
and complexity. Further, 19 Office personnel           General training programs and other relevant
are funded through monies pursuant to the              venues. We were particularly proud to host
Consolidated Appropriations Act, 2008 (P.L.            two FLETC classes at our facilities during the
110-161) which specifies that “…$21,480,000            reporting period. We hosted an International
may be transferred from the Universal Service          Banking and Money Laundering class in
Fund in fiscal year 2008 to remain available           May 2009 and a Financial Forensics class
until expended, to monitor the Universal               in September 2009, and filled both of these
Service Fund program to prevent and remedy             classes with FCC OIG staff.             By holding
waste, fraud and abuse, and to conduct audits          these classes within the FCC and not sending
and investigations by the Office of Inspector          almost 50 employees to FLETC in Georgia, this
General..” These employees allow this Office           Office enjoyed tremendous savings (in excess
to aggressively pursue fraud and waste in              of $100,000).     We will continue to explore
the FCC’s Universal Service program. Their             approaches to maximize both training funds
primary function is to work in support of law          and the level of education received.
enforcement agencies nation-wide as these
agencies prosecute civil and criminal actions.

   FCC OIG - Semiannual Report to Congress         6                         April 1, 2009 - September 30, 2009

   FCC OIG Semiannual Report                                           April 1, 2009 through September 30, 2009
                  OIG Management Activities
             Office Modernization                           •	 Establishing     a      consistent       discovery
                                                               workflow process;
 The Office is implementing new software •	 Identifying and evaluating the relevance
 components       and   other    technologies     for          of   documents         more    accurately     and
 managing investigations and audits.             The           efficiently;
 addition of investigative software such as •	 Quickly                    and    easily      loading,     culling,
 LexisNexis Concordance and the Investigative                  converting,     reviewing      and   producing
 Management Information System (“IMIS”),                       supporting documentation;
 will    streamline     investigative        workflow •	 Linking document review and critical
 and improve quality and production.             The           fact management for more effective case
 addition of audit management software,                        analysis; and
 TeamMate, will provide auditors with a •	 Enhancing                           team    communication         and
 paperless audit management solution. All the                  collaboration.
 above will modernize the Office and increase
 efficiencies.                                              IMIS


 LexisNexis Concordance                                     IMIS is an electronic case management system
                                                            for investigations. This web-based information
 OIG selected LexisNexis Concordance to system will be accessible from the web browser
 achieve greater control, efficiency and insight on any OIG computer. The system will be
 across the entire discovery workflow when accessible through the FCC network either
 performing investigative work.           LexisNexis directly or through a Virtual Private Network
 helps    bring   together      litigation    support (VPN) over encrypted channels.
 resources and offers a greater control and
 confidence throughout discovery by:



FCC OIG - Semiannual Report to Congress                 7                 April 1, 2009 - September 30, 2009
            OIG Management Activities
TeamMate                                          •	 Libraries and TeamStores -
                                                      Knowledgebase and templates
OIG selected TeamMate audit management •	 TeamMate TEC - Time and expense
software because it provides auditors with            capture
an integrated, paperless audit management •	 TeamCentral - Project and issues tracking
system,     thus   eliminating   the   barriers       database
associated with paper-filled binders and •	 TeamSchedule - Resource and project
disconnected electronic files.    OIG will be         scheduling
relying on TeamMate to increase efficiency
and productivity of the entire audit process                     Internship Program
including: (1) risk assessment; (2) scheduling;
(3) planning; (4) execution; (5) review; (6) report The OIG welcomes college interns during
generation; (7) trend analysis; (8) committee the fall, spring and summer semesters.
reporting; and (9) storage.                       Most of these students take their internships
                                                  for college credit.     Our interns have come
This audit management software solution from schools across the country including
streamlines every facet of the audit process to American University, Arizona State University,
improve workflow and empower the auditor DePauw University, Georgetown University,
to spend less time documenting and reviewing Hamilton College, James Madison University,
and more time providing value-added service. Marymount College, Long Island University,
The key components of TeamMate’s Audit North Carolina State University, Purdue
Management Software are:                          University, the University of California at
                                                  Berkeley, the University of California at Davis,
•	 TeamRisk - Risk assessment software            the University of Maryland Law School,
•	 TeamMate EWP - Audit documentation             the University of North Carolina, Xavier
   system                                         University, Liberty College and Northern

   FCC OIG - Semiannual Report to Congress        8                     April 1, 2009 - September 30, 2009

   FCC OIG Semiannual Report                                      April 1, 2009 through September 30, 2009
                  OIG Management Activities
Virginia Community College.                               the activities of the OIG and the FCC, such
                                                          as proposed amendments to the Inspector
These internships have proven to be rewarding General Act.                In addition to legislative
experiences for all participants.         Students developments, OIG continuously monitors
leave with a good understanding of how a FCC policy development and provides input
government agency operates, and they have as appropriate.
the opportunity to encounter challenges while
enjoying the rewards that can come from public
service. In turn, the Office has benefited from
the students’ excellent work performance.


      Legislative and Policy Matters


Pursuant to section 4(a)(2) of the Inspector
General Act, 5 U.S.C. App. 3 § 4(a)(2), our
Office monitors and reviews existing and
proposed legislation and regulatory proposals
for their potential impact on the OIG and the
FCC’s programs and operations. Specifically,
we perform this activity to evaluate legislative
potential for encouraging economy and
efficiency while helping to reduce fraud,
waste, abuse, and mismanagement.


During this reporting period, the Office
monitored    legislative   activities     affecting

FCC OIG - Semiannual Report to Congress               9                 April 1, 2009 - September 30, 2009
 audit Activities

        financial audits

      performance audits

universal service fund oversight
                          audit activities
                                financial audits
  FINANCIAL STATEMENT AUDITS                          by the Inspector General, is required by the
                                                      Chief Financial Officers Act of 1990 (“CFO
Financial statement audits are mandatory for          Act”), as amended, to audit the FCC financial
the FCC and provide reasonable assurance as           statements in accordance with government
to whether the agency’s financial statements          auditing standards issued by the Comptroller
are presented fairly in all material respects.        General of the United States (“GAGAS”).
Other objectives of financial statement audits        Under the direction of the Office, KPMG
are to provide an assessment of the internal          LLP (“KPMG”), an independent certified
controls over transaction processing for              public accounting firm, is performing the
accurate financial reporting and an assessment        audit of FCC’s FY 2009 consolidated financial
of compliance with applicable laws and                statements. The audit is being performed in
regulations.                                          accordance with GAGAS, OMB Bulletin 07-
                                                      04, as amended, and applicable sections of
 Audit of the Federal Communications                  the U.S. Government Accountability Office
      Commission Fiscal Year 2009                     (“GAO”)/President’s Council on Integrity &
   Consolidated Financial Statements                  Efficiency (“PCIE”) Financial Audit Manual.
                                                      This audit is currently in progress.
In accordance with the Accountability of
Tax Dollars Act of 2002, the FCC prepared                     PERFORMANCE AUDITS
consolidated financial statements for the
2009 fiscal year in accordance with Office of         Performance      audits      are       systematic
Management and Budget (“OMB”) Circular                examinations that are conducted to assess
A-136, Financial Reporting Requirements,              the performance of a government program,
and subjected them to audit. The FCC IG,              activity, or function so that corrective action
or an independent external auditor selected           can be taken, if appropriate.      Performance


   FCC OIG - Semiannual Report to Congress       12                      April 1, 2009 - September 30, 2009
                                 audit activities
                                      PERFORMANCE audits
  audits include audits of government contracts           we have contracted with KPMG to test the
  and grants with private sector organizations,           effectiveness of security controls for a subset
  as well as government and non-profit                    of the Commission’s systems and the FCC’s
  organizations.     These audits determine an            privacy management system. This project is
  auditee’s compliance with contractual terms,            in progress and should be completed by the
  Code of Federal Regulations, Title 41, Federal          end of the next reporting period.
  Acquisition Regulations (“FAR”), and policy
  and procedures of the FCC Office of Managing             Audit of the Federal Communications
  Director.                                                Commission Contract Administration
                                                               for Recovery Act Procurements
     Fiscal Year 2009 Federal Information
        Security Management Evaluation                    We have contracted for an audit of FCC
              and Risk Assessment Act                     contracts funded by the American Recovery
                                                          and Reinvestment Act of 2009 (“ARRA”) (P.L.
  The      Federal      Information       Security        111-5) and related internal controls. Under
  Management Act (“FISMA”) focuses on the                 the ARRA, the National Telecommunications
  programmatic management, implementation,                and Information Administration (“NTIA”) of
  and evaluation of agency security systems. A            the Department of Commerce may transfer
  key FISMA provision requires that each IG               up to $90 million in funding to the FCC for
  perform an annual evaluation of his or her              consumer education and outreach. Initiatives
  agency’s information security programs. The             to be funded include media buys, walk-
  objective of this evaluation is to examine the          in assistance centers, in-home converter
  Commission’s security program and practices             box assistance, call center support services,
  with respect to major information system                upgrades to improve the Commission’s DTV
  applications.    To address this requirement,           website, printing DTV publications and


FCC OIG - Semiannual Report to Congress              13               April 1, 2009 - September 30, 2009
                           audit activities
                               Performance audits
translating those publications to benefit non-     This audit is in progress.
English speaking communities, and travel
for staff providing local support, particularly    Additionally, we are working on several
in markets with a significant percentage of        other initiatives to provide oversight of the
households receiving television signals over-      FCC’s activities that support the ARRA. We
the-air.                                           are conducting a review of the data quality
                                                   for the FCC’s ARRA required reporting. We
The purpose of this audit is to determine if       participate in our own reporting activities,
contracts funded by ARRA were awarded and          to include updates to our monthly activities,
administered in compliance with provisions         ARRA work plans, and identification of high
of the ARRA. The specific objectives of the        risk areas, and also coordinate with other
audit are to:                                      OIGs to ensure the funds entrusted to the FCC
                                                   under the ARRA are monitored and spent
(1) Ensure that contracts funded by the ARRA       wisely.
were awarded and administered (to include
pre-solicitation,   solicitation,   evaluation,     Audit of the Federal Communications
award, and administration) in accordance               Commission Travel and Purchase
with provisions of the ARRA, the FAR, and                         Card Program
FCC policies, procedures and provisions.
                                                   We have contracted for an independent audit
(2) Evaluate the design and implementation         of FCC travel and purchase card transactions,
of internal controls related to the award and      which will include (but not be limited to)
administration of contracts funded by the          transactions using funds provided by the
ARRA.                                              ARRA to support ARRA related projects.
                                                   Agencies that receive ARRA funds are


    FCC OIG - Semiannual Report to Congress   14                      April 1, 2009 - September 30, 2009
                                 audit activities
                                         Performance audits
  required to implement controls for contracts          Programs.
  awarded using covered funds and perform
  audits to deter or prevent wasteful spending,         This audit is in progress.
  poor contract or grant management, or other
  abuses from occurring. This audit will include         Audit of the Federal Communications
  an examination of travel purchase card                      Commission Electronic Travel
  transactions made using funds provided by                           System (e-Travel)
  the ARRA and the related internal controls.
                                                        We have contracted for an independent
  The objectives of this audit are to:                  audit of the FCC’s Electronic Travel System
                                                        (“e-Travel”) and the related internal controls.
  (1) Evaluate the design and implementation            The   Federal    Travel    Regulation     (“FTR”)
  of internal controls for the FCC’s travel and         requires government agencies, with a few
  purchase card programs.                               exceptions, to deploy and use electronic
                                                        travel systems to plan and manage official
  (2) Determine if transactions were properly           temporary duty travel. The e-travel system is
  authorized, adequately documented, and                a web-based, end-to-end travel management
  used for appropriate, legitimate government           system used to plan, authorize, arrange,
  purposes.                                             process, and manage official FCC travel. This
                                                        audit will determine if the FCC’s electronic
  (3)    Determine if the FCC travel card               system has been fully implemented, is being
  program is being effectively managed using            used effectively and efficiently for managing
  guidance and best practices provided in OMB           FCC travel, and whether the FCC is realizing
  Circular A-123, Appendix B, Improving the             all of the benefits of the electronic system (e.g.,
  Management of Government Charge Card                  streamlined processing, faster payments, less


FCC OIG - Semiannual Report to Congress            15                April 1, 2009 - September 30, 2009
                             audit activities
                                  PERFORMANCE audits
time to prepare travel authorizations, make          effectively and efficiently for managing FCC
travel arrangements, and file travel claims).        travel, and whether the FCC is realizing all
The audit will also evaluate the adequacy            of the benefits of the electronic system (e.g.,
of the FCC’s internal controls related to the        streamlined processing; faster payments; less
electronic travel system.                            time to prepare travel authorizations, make
                                                     travel arrangements, and file travel claims).
The objectives of this performance audit are
to:                                                  This audit is in progress.


(1) Evaluate the design and implementation              Audit of Federal Communications
of internal controls for the FCC’s electronic              Commission Compliance with
travel system.                                          FSIO Requirements for Managerial
                                                              Cost Accounting Systems
(2) Determine if the FCC’s electronic travel
system meets the requirements of the E               We have contracted for an independent audit
Government Act of 2002 and has been                  of the FCC’s compliance with the Financial
effectively implemented, as required by the          Systems Integrations Office (“FSIO”) (formerly
FTR.                                                 Joint Financial Management Improvement
                                                     Program) Federal Financial Management
(3) Determine if the FCC’s Travel System is          System Requirements for Managerial Cost
in compliance with the JFMIP Travel System           Accounting. The requirements are stated in
Requirements (JFMIP-SR-99-9, July 1999).             publication number FFMSR-8, dated February
                                                     1998, and titled “System Requirements for
(4) Determine if the FCC’s electronic system         Managerial Cost Accounting” which can
has been fully implemented, is being used            be found at www.fsio.gov. Managerial cost


      FCC OIG - Semiannual Report to Congress   16                      April 1, 2009 - September 30, 2009
                                 audit activities
                                          PERFORMANCE audits
  accounting systems are to provide reliable        Management Systems. The requirements are
  timely information on the full cost of federal    stated in publication number JFMIP-SR-00-04,
  programs, their activities and outputs. Such      dated October 2000, and titled “Property
  systems assist stakeholders in managing           Management Systems Requirements,” which
  programs, planning, decision making and           can be found at www.fsio.gov.             Federal
  reporting in accordance with missions and         agency property management systems are
  roles established by Congress. This audit is      critical for establishing financial accounting
  in progress.                                      and   maintaining     physical    accountability
                                                    over property. Such systems assist property
  The objectives of the audit are to:               managers in managing their property in
                                                    accordance with missions and roles established
  (1) Verify that FCC’s managerial cost             by Congress. This audit is in progress.
  accounting system meets FSIO requirements.
                                                    The objectives of the audit are to:
  (2) Evaluate the design and implementation
  of internal controls related to the managerial    (1) Verify that FCC’s property management
  cost accounting system.                           system meets FSIO requirements.


      Audit of Federal Communications               (2) Evaluate the design and implementation
         Commission Compliance with                 of internal controls related to the property
       FSIO Requirements for Property               management system.
              Management Systems


  We have contracted for an independent audit
  of the FCC’s compliance with FSIO for Property


FCC OIG - Semiannual Report to Congress            17           April 1, 2009 - September 30, 2009
                             audit activities
                 Universal Service Fund (USF) oversight
During      this reporting period we have              • High Cost support ensures that consumers
continued our assessment of the OIG’s                  in all regions of the nation have access to and
oversight of the Universal Service Fund.               pay rates for telecommunications services that
The OIG is placing a strong emphasis on                are reasonably comparable to those services
coordinating among Commission bureaus                  provided and rates paid in urban areas.
and offices and with the Universal Service
Administrative Company (“USAC”), which                 • Schools and Libraries support, commonly
administers the USF at the direction of the            known as “E-Rate,” provides discounts to
FCC. We are firmly committed to sharing the            assist schools and libraries in the United States
experience and expertise gained by the OIG.            to obtain affordable telecommunications and
We are developing a risk assessment-based              Internet access.
audit approach for USF oversight, considering
the scope of the program, the parties involved         • Low Income support is designed to
and their respective roles, our experience and         ensure that telecommunications services are
other available information.                           available to low-income customers at just,
                                                       reasonable, and affordable rates. Similar
The USF team currently consists of one                 programs have existed since at least 1985. The
Assistant Inspector General, three Directors           Telecommunications Act of 1996 reiterated
and six staff auditors. There is also a Special        their importance by including the principle
Counsel for USF who reports directly to the            that “consumers in all regions of the nation,
IG.                                                    including low income consumers . . . should
                                                       have access to telecommunications and
There are four universal service support               information services . . .”
mechanisms:
                                                       •          Rural Health Care support is to


      FCC OIG - Semiannual Report to Congress     18                       April 1, 2009 - September 30, 2009
                                 audit activities
                         Universal Service Fund (USF) oversight
  provide reduced rates to rural health care                   contributor audits;
  providers for telecommunications services                 •	 monitoring of audits performed by USAC
  and Internet access charges related to the                   Internal Audit Division (“IAD”) staff;
  use of telemedicine and teleheath. The Rural              •	 monitoring of beneficiary audits contracted
  Health Care Pilot Program is a pilot funding                 by USAC;
  program designed to facilitate the creation of            •	 audits of selected FCC components; and
  a nationwide broadband network dedicated                  •	 audits of selected USAC components.
  to health care, connecting public and private
  non-profit health care providers in rural and                         High Cost Program
  urban locations.
                                                            During this reporting period, we substantially
  FCC rules require all telecommunications                  completed high cost program attestation
  providers        of      international       and          examinations     of    eight    Sprint     Nextel
  interstate     telecommunications        services,        Corporation USF high cost support recipients.
  including providers that offer interstate                 These audits were completed as part of the
  telecommunications for a fee on a non-                    Round 3 IPIA attestation audit program.
  common carrier basis, interconnected Voice                We audited five former Sprint recipients,
  Over Internet Protocol (“VOIP”) providers,                including Sprint-Arizona, Georgia, Indiana,
  and payphone providers that are aggregators,              Puerto Rico and Texas, and three former
  to contribute to the USF.                                 Nextel recipients, including Nextel-Georgia,
                                                            Hawaii, and Pennsylvania.
  Oversight and audit coverage for all programs
  consists of:                                              As of the end of this reporting period, all
                                                            fieldwork is complete, the exit conference has
  •	 targeted     recipient,   beneficiary     and          been completed, independent referencing is


FCC OIG - Semiannual Report to Congress                19               April 1, 2009 - September 30, 2009
                           audit activities
                Universal Service Fund (USF) oversight
nearly complete, and the draft report is in final         further on USAC’s report.
review for all eight audits. It is anticipated
that all reports will be issued during the next                 Schools and Libraries Program
reporting period.
                                                          During this reporting period, we substantially
On September 10, 2009, USAC released                      completed an attestation examination of the
a report (Final       Report     and Statistical          San Bernardino Unified City District in San
Analysis Regarding the 2006-2007 Federal                  Bernardino, California. This audit was also
Communications        Commission       Office   of        part of the Round 3 IPIA attestation audit
Inspector   General    High     Cost    Program           program. The audit included testing of 27
Beneficiary Audits or “USAC High Cost                     assertions related to 2006-2007 disbursements
Report”) presenting an analysis that revised              of $7,780,214. The disbursements examined
downward      significantly    the     previously         included the four types of USF schools and
reported erroneous payment rate for the                   libraries program funding categories including
High Cost program for Round 1. This Office                internal connections, basic maintenance of
reported an initial erroneous payment rate                internal connections, Internet access, and
of 16.56 percent (Initial Statistical Analysis of         telecommunications services.         The school
Data from the 2006/2007 Compliance Audits,                district includes 65 schools and over 56,000
dated October 3, 2007).        USAC’s reported            students.
rate was 2.74 percent. Although this Office is
still evaluating the USAC High Cost Report,               As of the end of this reporting period, fieldwork
it appears clear that the erroneous payment               is complete, a preliminary exit conference has
rate set forth in initial OIG Report is too high          been completed, and the workpapers and draft
at a statistically significant level. Once our            report are being finalized. It is anticipated
evaluation is complete, we will comment                   that the final report will be issued during the


   FCC OIG - Semiannual Report to Congress           20                       April 1, 2009 - September 30, 2009
                                 audit activities
                         Universal Service Fund (USF) oversight
  next reporting period.                                to the OIG report and additional information,
                                                        and considering that OIG did not conduct
  Although outside of this reporting period,            an audit or other structured examination of
  USAC submitted a report presenting an                 the disbursement system, it was decided to
  analysis revising downward the previously             withdraw the 100% erroneous payment level
  reported initial erroneous payment rate for           for the low income program. OIG is initiating
  the Schools and Libraries program for Round           a review of the low income disbursement
  1. The amount of this proposed reduction was          system.
  less than in the USAC High Cost Report cited
  above. Again, once our evaluation has been            During this reporting period, we
  completed, we will comment on this USAC               substantially completed a self-initiated Low
  report.                                               Income performance audit. The draft report
                                                        for the YourTel America, Inc. audit was
              Low Income Program                        issued March 31, 2009 and we expect to issue
                                                        the final report during the next reporting
  On July 28, 2009, OIG withdrew the 100%               period.
  erroneous payment determination for the
  USF Low Income program made in the prior                               Contributors
  December 12, 2008 OIG report. The basis for
  the original determination of a 100% erroneous        During this reporting period, we substantially
  payment level in the low income program               completed 12 USF contributor attestation
  was that the source documentation could not           examinations.     As of September 30, 2009,
  be provided as needed to permit verification          we have two final reports in the last stage
  of the calculations of the program amounts            of review.   For the 10 other examinations,
  disbursed. After reviewing USAC’s response            we have completed fieldwork, summarized


FCC OIG - Semiannual Report to Congress            21                April 1, 2009 - September 30, 2009
                             audit activities
                  Universal Service Fund (USF) oversight
workpapers and completed draft reports. As            •	    A local and long distance reseller did
of this reporting period, all draft reports are       not report millions of dollars of interstate and
in various stages of the review process. We           international revenues and, therefore, did
anticipate issuing all draft and final reports        not pay any associated USF contributions. It
during the next reporting period.                     reported all revenues as intrastate.


The examinations have disclosed the following         •	    One    company      misclassified      VOIP
findings and conditions:                              related revenues as non-telecommunication
                                                      revenues and, therefore, did not pay any
•	     One company did not file required FCC          associated USF contributions.
Form 499-As and report USF-related interstate
revenues and may be liable for assessments of         Also during this reporting period, we
additional USF contributions.                         substantially completed a project designed
                                                      to identify potential non-filers.       The USF
•	     One company overstated USF-related             Contributors Survey project was started
interstate and international end-user revenues        in response to information gathered about
in 2007.                                              telecommunication     companies        not   filing
                                                      Telecommunications Reporting Worksheet
•	     One company did not submit a required          (FCC Form 499-A) during FCC OIG contributor
form for reporting international revenues.            audit field work. FCC OIG contracted with
                                                      an independent accounting firm to attempt to
•	     Three companies did not follow rules           discover federal USF non-filers by comparing
to qualify for the reseller’s revenue exemption       listings of active telecommunication companies
regarding      USF-related     interstate      and    registered from each state Public Utility
international end-user revenues.                      Commissions (“PUC”) to USAC’s main 499-A
                                                      database. During this period, we received a

     FCC OIG - Semiannual Report to Congress         22                  April 1, 2009 - September 30, 2009
                               audit      activities
                          Universal Service Fund (USF) oversight

  listing of active registered telecommunication        a final report on this project during the next
  companies from the following state PUCs:              reporting period.
  Maryland, Delaware, Virginia, Pennsylvania,
  West Virginia and New Jersey. Out of those                    Audits of Universal Service
  six states, the firm identified and researched            Administrative Company Committees
  approximately      50    probable       non-filing
  telecommunication companies for follow-               The Office continues to work on audits of
  up. The firm’s manual research on telecom             two USAC Committees: (1) the Schools
  listings (which may include no longer                 and Libraries Committee and (2) the High
  active companies) gathered from state PUC             Cost and Low Income Committee.              These
  websites have identified over 1,000 potential         committees oversee the administration of USF
  non-filing telecommunication companies in             support mechanisms (see the report section
  32 states. In September 2009, we issued 49            “Universal Service Fund Oversight” for more
  letters to potential non-filers asking for the        information). The committees are responsible
  companies’ position on whether it is required         for actions such as projecting demand for
  to file FCC Form 499-A. The companies’ that           the support mechanisms, administering the
  claim an exemption to the filing requirement          application process, and performing audits
  are asked to provide an explanation of and            of support recipients and beneficiaries. Our
  documentation to support their exemption.             audits are designed to test the effectiveness with
                                                        which the USAC committees have met their
  As of September 30, 2009, we have received            responsibilities and to identify opportunities
  23 responses. Two companies stated that they          for improvement.       The objectives of these
  will begin filing the FCC Form 499-A. Follow-         audits include assessing the management
  up to initial replies and additional analysis         controls that have been established by the
  continues. We expect to summarize and issue           committees. These audits are in progress but


FCC OIG - Semiannual Report to Congress                23            April 1, 2009 - September 30, 2009
                            audit activities
                  Universal Service Fund (USF) oversight
should be finalized soon.                              programs and activities annually in order
                                                       to identify and report on those that may be
OIG Role in the FCC Improper Payment                   susceptible to significant improper payments.
  Information Act (“IPIA”) Assessment                  The annual report is to include an estimate of
                                                       the amounts improperly paid and a description
The transitions underway both in the IG’s              of actions taken to reduce them.
role of overseeing the FCC’s universal service
program and implementation of the Improper             The IPIA does not expressly establish a role
Payments Information Act of 2002 (Public               for OIG. OMB guidance on the IPIA notes that
Law No: 107-300) (“IPIA”) are of necessity             because the IPIA recovery audit program is an
intertwined.   Under the IPIA, agencies are            integral part of the agency’s internal control
required to review programs and activities             over payments, and therefore a management
they administer and identify those which               function,    independence       considerations
may be susceptible to significant erroneous            would normally preclude the IG and other
payment problems.                                      agency external auditors from carrying out
                                                       management’s     recovery    audit    program.
The IPIA was enacted to be a management                Agencies’Inspectors General and other external
tool and expanded the Government’s abilities           agency auditors are encouraged, however, to
to identify and reduce erroneous payments              assess the effectiveness of agencies’ recovery
in government programs and activities. The             audit programs. From 2006, however, and
goal of the IPIA is to improve the integrity of        until this reporting period, the OIG had an
government payments and the efficiency of its          expansive role in the FCC’s IPIA assessment
programs and activities. In combination with           process, including determining the timing
implementing guidance from the Office of               and method of IPIA implementation and the
Management and Budget (“OMB”), executive               determination of erroneous payment rates.
agency heads are required to review their              USAC administered the numerous IPIA

   FCC OIG - Semiannual Report to Congress        24                     April 1, 2009 - September 30, 2009
                            audit      activities
                       Universal Service Fund (USF) oversight
  attestation audit engagements under OIG              process since 2006 was more appropriately
  direction.                                           within the purview of the Commission
                                                       operating responsibilities delegated to the
  Under Section 2 of the Inspector General Act, the    Office of Managing Director. OIG is therefore
  IG has the independent discretionary authority       shifting back toward more focused and
  to conduct audits and investigations relating        traditional OIG audits of USF recipients,
  to the agency’s programs and operations, such        contributors and beneficiaries. The Acting IG
  as the federal universal service program. The        is taking steps to ensure that all OIG audits,
  IG is to provide leadership and coordination         whether USF-related or not, are appropriate
  for the agency, and to recommend policies            to OIG’s mission and are not duplications
  designed to promote economy, efficiency and          of or substitutions for agency operational
  effectiveness and to prevent fraud, waste and        responsibilities. Regulatory compliance audits
  abuse in agency programs and operations.             performed by or under the direction of the IG
  Under Section 9(a)(2) of the Inspector General       will not serve as a substitute for the agency’s
  Act, when an OIG is established in an agency,        separate statutory or regulatory obligations.
  the preexisting functions, powers and duties         The IG will review the agency’s activities
  within the agency that are necessary for the         in IPIA implementation and compliance
  performance of the statutory mission and             responsibilities, however, in performing its
  duties of the OIG are transferred to it, but the     traditional oversight role.
  statute specifically prohibits the transfer of
  any program operating responsibilities from          Data generated from the extensive IPIA process
  the agency to an OIG.                                was intended for use in meeting statutory
                                                       goals of the IPIA and the Communications
  During this reporting period, this Office            Act, as amended. Although not inconsistent,
  concluded that a large part of the OIG’s             each statute has distinct goals and emphases.
  expansive role in the FCC’s IPIA assessment          It appears that both the actual data analysis

FCC OIG - Semiannual Report to Congress               25           April 1, 2009 - September 30, 2009
                            audit activities
                    Universal Service Fund (USF) oversight
and the combined reporting of the results                        Support to Investigations
of the IPIA attestation examinations did
not always adequately distinguish among                In addition to the audit component of our
or fully serve those goals. As a result, the           oversight program, we have provided, and
information provided to the OIG, Congress,             continue to provide, audit and investigative
the Commission and the public was less clear           support to the United States Department of
and less meaningful than it should have been.          Justice investigations of USF beneficiaries and
The OIG continues to evaluate the lessons              recipients.   To implement the investigative
that it has learned from its involvement in the        component of this effort, we have developed
IPIA attestation audit process, both in terms          working       relationships     with      various
of information regarding the program and               components of the Department of Justice. As
recipient and beneficiary compliance and               of the end of this reporting period, we are
also as to how we perform our own audit                directly supporting 18 investigations. Please
and oversight functions. Future reports will           refer to the Investigations section of this report
discuss these matters in more detail.                  for further information.


Further, this Office is committed to gleaning
data from the attestation audits examinations
to establish a data-mining project.        This
project will support future OIG USF audits by
allowing us to utilize vulnerability assessment
and risk analysis procedures to select USF
recipients and beneficiaries. The additional
data and analysis could also support OIG USF
investigations, both current and future.



     FCC OIG - Semiannual Report to Congress      26                         April 1, 2009 - September 30, 2009
                                 audit activities




                            PAGE INTENTIONALLY BLANK




FCC OIG - Semiannual Report to Congress   27   April 1, 2009 - September 30, 2009
Investigations

ACTIVITY DURING THIS PERIOD

    significant ACTIONS

       OIG HOTLINE
                            investigations
Office of Inspector General investigations are of Special Counsel, and members of Congress
frequently initiated on the basis of allegations refer matters to OIG for potential investigation.
of employee misbehavior, violations of federal In addition, investigations may develop
law or FCC regulations      or other forms of from OIG audits or inspections that discover
fraud, waste, abuse or criminal activity. These evidence or indications of fraud, waste, abuse,
investigations often address allegations of misconduct, corruption, or mismanagement
fraud in FCC programs, such as the federal of FCC programs or operational segments.
universal service programs, or other criminal
activity or misconduct within the FCC or After receiving an allegation of fraud, waste
its programs.    We also receive complaints or abuse, the AIGI or a staff investigator will
regarding the manner in which the FCC conduct a preliminary review of the matter
executes its programs, how the FCC handles to determine if an investigation or referral is
its operations administratively, and how the warranted. Sometimes serious allegations may
FCC conducts its oversight responsibilities.       merit attention, but are outside the jurisdiction
                                                   of the OIG. These allegations would be referred
Allegations come from all sources.           FCC to the appropriate entity, usually another office
managers, employees, contractors, and other or bureau in the FCC or another federal or law
stakeholders often contact the Office directly enforcement agency, for review and response
with concerns about fraud, waste, abuse or to the complainant. As much as possible, the
other inappropriate behavior. Individuals call OIG continues to be involved and serve as a
or e-mail the OIG Hotline, or send complaints facilitator for complaints that are outside the
through the United States Postal Service. jurisdiction of this office. The OIG, like most
These allegations can be, and frequently government offices, has an ever-increasing
are, made anonymously. Other government volume of work and dedicated but limited
agencies, federal, state and local, including the resources. Therefore, allegations of matters
Government Accountability Office, the Office within the jurisdiction of OIG are reviewed for

   FCC OIG - Semiannual Report to Congress        30                   April 1, 2009 - September 30, 2009
                                   investigations
 assignment and priority in a “triage” method. and expense on many occasions. The FCC OIG
 Matters that have the potential to significantly is often on the receiving end of this cooperation,
 impact federal funds, important FCC missions so we are gratified to be able to note that in
 or programs, or the basic integrity and working this reporting period the FCC OIG was able to
 of the agency receive the highest priority for provide assistance to law enforcement officers
 investigation and assignment of resources.        from the Drug Enforcement Agency in one of
                                                   their investigations and to the U.S. Department
 The Office works on a large number of of Justice in a bankruptcy fraud matter.
 investigations that vary greatly in complexity
 and variety. We investigate complex cyber The AIGI and staff also work with other
 crime   allegations,   cases   involving   large agencies, including the U.S. Department of
 criminal   conspiracies,    and    on    matters Justice, to support their criminal and civil
 throughout the United States and its territories. investigations and prosecutions relating to
 These complex and wide-ranging cases often FCC missions and programs. Many of these
 require substantial investigative expertise and investigations      and    prosecutions      involve
 resources that OIG itself does not have, which fraud pertaining to the federal Universal
 can include needing personnel on the ground Service Program, sometimes referred to as
 across several states or high-grade forensic the Universal Service Fund or USF. One of
 tools and the expertise to use them. In these the USF programs that benefits schools and
 cases we have always received, and are grateful libraries across the nation, often know as the
 for, the assistance of the law enforcement E-Rate Program, has been a prime target for
 components of other agencies, especially fraud but has also been the focus of joint and
 including the OIG of other federal agencies. coordinated investigation and prosecution
 This cooperation within the law enforcement efforts by the Department of Justice and the
 community has saved our office valuable time FCC and its OIG. Those efforts have now



FCC OIG - Semiannual Report to Congress           31              April 1, 2009 - September 30, 2009
                               investigations
resulted in a history of successful prosecutions The investigations pertaining to the pending
and indictments, and of restitution for such seventy-two (72) non-USF cases are on-going.
fraud to the USF.
                                                               SIGNIFICANT ACTIONS
      ACTIVITY DURING THIS PERIOD
                     Statistics                           Modernizing FCC OIG Investigations
Cases pending as of October 1, 2008             96
New Cases                                       14
Cases Closed                                    20     As with the FCC as a whole, improving the
Cases pending as of March 31, 2009	             90     efficient use of scarce resources by modernizing
                                                       computer-aided forensics and other technical
At the outset of this reporting period ninety-six assets in our work is an on-going effort for
(96) cases were pending. Thirty-three (33) of OIG Investigations.              During the reporting
those cases involve the Commission’s Universal period, we made especially significant strides
Service Fund (“USF”) program and have been towards this end by acquiring the necessary
referred to the Federal Bureau of Investigation equipment           and    material    to   implement
(“FBI”) and/or the U.S. Department of Justice. enhanced electronic forensic tools and, in part
An additional ten (10) non-USF complaints through the generosity of other federal OIGs,
and four (4) USF complaints were received a new and robust electronic case management
during the current reporting period. Over the system            already    developed     and    refined
last six months, twenty (20) cases, fifteen (15) specifically to meet the needs of a federal OIG
USF and five (5) non-USF related, have been Investigations office. We also established a
closed. As a consequence, a total of ninety relationship with the Department of Defense
(90) cases are pending, of which eighteen (18) Cyber Investigations Training Academy to
relate to the USF program. The OIG continues increase the knowledge and skill base of
to,    coordinate    and/or   support    activities Investigations staff in computer forensic work
regarding those eighteen (18) investigations. and cybercrime investigations. We continue

      FCC OIG - Semiannual Report to Congress        32                   April 1, 2009 - September 30, 2009
                                  investigations
  to work on these and related efforts to find individual            over       telecommunications
  and utilize modern technology in ways that transmissions through the use of an interpreter
  will leverage our scarce resources for the or communications assistant. Certain private
  most efficient and effective investigation and sector entities, that are either part of certified
  prosecution of fraud, waste and abuse in FCC state programs or are certified by the FCC,
  missions and programs.                           provide TRS services for telecommunications
                                                   calls to or from hearing or speech impaired
        Investigations into Fraud in the           individuals    and    are    then    compensated
    Federal Communications Commission              through the FCC’s TRS program at a rate, set
      Telecommunications Relay Services            by the FCC, per minute of use as reported on
                      Program                      a monthly basis.


  The FCC OIG and the Criminal Division of The FCC established the TRS Fund pursuant
  the U.S. Department of Justice (“DOJ”) have to section 225 of the Communications Act
  been devoting significant law enforcement of 1934, as amended.               Section 225 requires
  resources to identify and prosecute fraud in the FCC to ensure that TRS are “available to
  the FCC’s Telecommunications Relay Services the extent possible and in the most efficient
  (“TRS”) program, sometimes called the TRS manner to hearing-impaired and speech-
  Fund. Recently, there has been partial public impaired individuals in the United States.”
  disclosure of these investigation activities 47 U.S.C. § 225.          The FCC’s TRS program
  stemming from the arrest of three individuals is funded by assessments on interstate
  allegedly involved in schemes to defraud the telecommunications carriers, which are passed
  TRS program.                                     on to consumers through the rates that they
                                                   pay for telecommunications services.               The
  TRS permits hearing or speech impaired FCC’s TRS program is projected to pay out
  individuals to communicate with a hearing $960 million to providers in the current (July

FCC OIG - Semiannual Report to Congress          33              April 1, 2009 - September 30, 2009
                            investigations
1, 2009 – June 30, 2010) funding year.              of the following:


Video Relay Service (“VRS”) is a form of TRS •	 Callers specifically requested that no TRS
that allows individuals with hearing disabilities      interpretation be done;
to use sign language to communicate with voice •	 Calls to numbers that did not require any
telephone users through video equipment,               TRS interpretation (podcasts, interminable
a broadband connection, and use of a video             holds);
interpreter (“VI”). Around 80% of TRS Fund •	 “Run” call initiating from overseas IP
payments are made to VRS providers.                    addresses by callers with little or no fluency
                                                       in sign language (simply leaving a line
Based on allegations of fraud received from            open without TRS interpretation occurring
VIs, other employees of VRS providers, and             but reporting the associated minutes for
others, OIG initiated investigations into              payment from the TRS Fund);
multiple targets in 2008. In mid-December •	 Implementation of “double privacy screens”
of that year, OIG presented the findings of its        (making any communication impossible
investigations to DOJ and shortly thereafter           by blocking the video display for both the
DOJ decided to pursue criminal charges. Joint          calling and called parties);
federal investigations of multiple subjects are •	 VIs calling themselves;
on-going. To date, three arrests have been •	 VIs simply connecting video phones/
made in Texas and in Florida. U.S. v. Kim E.           computers and letting them run;
Hawkins (W.D. Tex.); U.S. v. Yosbel Buscaron •	 Callers not paying attention;
and Lazaro Fernandez (S.D. Fl.).                    •	 Callers disconnecting from one
                                                       illegitimate call and immediately calling
The allegations of conspiracy, fraud and other         back to initiate another;
criminal activity in the TRS Fund that have •	 Callers admitted that they were be paid to
been made public so far are based on evidence          make TRS calls;

   FCC OIG - Semiannual Report to Congress      34                       April 1, 2009 - September 30, 2009
                                  investigations
  •	 Use of bogus marketing calls; and                 development      project   by   contractor       and
  •	 Call center personnel used fake VI logins to Commission personnel resulted in the failure
      run calls without VI interpreting.               of the CIMS project as planned, with monetary,
                                                       human resource, and program efficiency costs
      Investigation into Mismanagement                 to the agency.     Although multiple factors
  and Waste in the Federal Communication played a part in the mismanagement of the
             Commission Consumer                       CIMS project, this investigation found that
       Information Management System                   failing to comply with existing Commission
                                                       systems development policy by establishing
  The General Accountability Office referred and following a complete and adequate
  to the Office allegations concerning the Systems Development Life Cycle structure
  FCC’s Consumer and Governmental Affairs (“SDLC”) was the most significant factor in
  Consumer       Advocacy       and       Mediation the mismanagement of the CIMS project. We
  Specialists (“CAMS”) and the computer concluded that had an appropriate SDLC
  software developed to support their mission. been in place and followed by contractor and
  The referral centered on allegations of gross Commission personnel, the problems that did
  mismanagement and waste of funds by occur would have been mitigated.
  the Consumer and Governmental Affairs
  Bureau (“CGB”) with regard to the Consumer The lack of a SDLC had a substantial negative
  Information Management System (“CIMS”). impact on the CIMS project.                      It was not,
  The main complaint was that after the however, the only factor that caused the
  Commission spent $3 million on CIMS, the CIMS product, as originally planned, to
  system did not work.                                 fail. Deadline pressure, combined with off-
                                                       task requests for contractors to produce data
  After    an    intensive   investigation,    OIG reports from existing systems, development
  concluded that mismanagement of the CIMS protocol breaches (making changes on the fly

FCC OIG - Semiannual Report to Congress           35               April 1, 2009 - September 30, 2009
                               investigations
in the production environment without proper migration failure. As data was transferred,
testing), and the turnover and competence 13,000 records became suspect and had to be
of the project’s contracting officer’s technical addressed on an individual basis by a team of
representatives (“COTR”) all figured into the CAMS. Instead of taking minutes or hours to
equation that resulted in the failure.              migrate data from OSCAR to CIMS, the work
                                                    created by the failure of the migration took
The most visible event in the troubled history months to complete.
of CIMS was the late-stage attempt to move
data from the legacy Operations Support Developmental protocol breaches are the most
for    Complaint Analysis        and    Resolution puzzling aspect found during the investigation.
(“OSCAR”) system to CIMS.              OSCAR and It appears that the contracted CIMS project
CIMS are database systems designed to manager knew that changes should not
track and process complaints received by be made in the production environment;
the Commission. OSCAR is a non-relational nevertheless, the manager made or allowed
database, whereas CIMS is a relational such changes to be made. Throughout the
database, that is, SQL-based. Non-relational course of the investigation, in interviews of
databases use unlinked fields, while relational people that worked on CIMS, one statement
databases use data tables that can logically was heard more than any other - changes
link, or relate, to other data tables within were made during the rollout “on the fly.”
the system. This attempt at data migration Virtually everyone interviewed by OIG stated
failed, resulting in major delays in complaint this fact. Untested changes were introduced
and inquiry processing at the Commission. in the production environment, apparently
Analysis done after the attempted migration unknown to the COTR, and these changes and
identified 92 discrete data field mapping errors previously existing mapping issues resulted
between OSCAR and CIMS and determined in the 92 field mapping errors.
that these mapping errors caused the data

      FCC OIG - Semiannual Report to Congress     36                   April 1, 2009 - September 30, 2009
                                  investigations
  Finally COTR turnover, without a proper Ultimately, inadequate managerial oversight of
  SDLC in place and without proper transition the CIMS initiative and inadequate remediation
  procedures, played a part in the failed data made this unfortunate result possible.
  migration.    With no proper SDLC in place
  to work as a North Star (i.e., guide), each Since the time of the failed migration, CIMS
  successive COTR was arriving on the project has been rolled out but in a more limited form
  with a bit less information than his predecessor than originally planned. It is only with the new
  and each new COTR needed increasing Consumer Complaint Management System
  amounts of time to devote to bringing him with its additional costs in time and money,
  or herself up to speed. The FCC information that all of the functionality expected of CIMS
  technology project management report cites appears to have emerged at the Commission
  project manager churn as a problem in the
  CIMS situation, however, it appears that this Based on its review and analysis of the
  could as well be an issue of COTR churn and documentary             and     testimonial     evidence
  so, to paraphrase the TSTC report:               collected in this investigation, OIG concluded
                                                   that mismanagement of the CIMS development
  “The [COTR] turnover on the FCC CIMS project project       by     contractor    and     Commission
  … contributed to an uncertainty as to how the employees resulted in the failure of the CIMS
  project was truly progressing/transgressing. project.      Although multiple factors played
  A lack of transition planning (a Transition a part in this result, the OIG investigation
  Plan) as the project was turned over to each found that failing to comply with existing
  subsequent [COTR] caused each [COTR] to Commission systems development policy by
  assume the CIMS project was progressing not establishing and following a complete and
  successfully.” FCC Assessment of IT Project adequate SDLC was the most significant factor.
  Management (v1.00), p. 38 (2008).                OIG also concluded that having an appropriate
                                                   SDLC in place might have mitigated some of

FCC OIG - Semiannual Report to Congress          37               April 1, 2009 - September 30, 2009
                               investigations
the problems that occurred, thus reducing the union’s collective bargaining agreement; (3)
the monetary, human resource, and program a named Human Resources Specialist (“HRS”)
efficiency costs to the agency from the CIMS was limiting competition for job vacancies,
project history.                                    was biased towards particular employees, had
                                                    given applicants application answers, and had
     Investigation into Allegations of              engaged in nepotism; (4) Veterans’ Preferences
  Federal Communication Commission                  had not been properly applied for an employee
            Hiring Improprieties                    during the hiring process; (5) an unqualified
                                                    applicant had been selected for a position; and
During    the      reporting   period,   the   OIG (6) qualified applicants had not make various
concluded an investigation into allegations of certification lists (“certs”).
improprieties and administrative problems
associated with the posting and filling of a OIG conducted over 24 interviews and
number of positions in the Consumer and performed an extensive record review during
Governmental Affairs Bureau (“CGB”) by the investigation. The investigators reviewed
the office of Human Resources Management the complainants’ applications and resumes
(“HRM”) in the FCC’s Office of Managing for the subject positions, along with all the
Director. The case was initiated at the request applications and resumes of applicants that
of the National Treasury Employees Union made the certs for those positions. OIG also
Chapter 209, which identified 14 specific reviewed additional information regarding
complainants and six CGB job postings the hiring process.
released in the summer of 2008.
                                                    The investigation revealed that the named
The union alleged that: (1) the FCC’s “Quick HRS did act on the application of a close
Hire” program is not properly rating applicants; relative for one of the identified postings. The
(2) rating panels are not being used according to HRS admitted that this was a mistake. The

   FCC OIG - Semiannual Report to Congress        38                   April 1, 2009 - September 30, 2009
                                  investigations
  investigation determined HRM management There was no evidence of pre-selection or
  learned of the conflict of interest during wrongdoing on behalf of the managers
  the selection process, removed the HRS involved in the hiring process.
  from working on the posting, and had all of
  the relevant applications reviewed by two OIG noted that the Quick Hire process did
  independent FCC employees. Neither of the not appear to pose problems for applicants
  reviewing employees removed the relative attempting to apply for jobs. Moreover, during
  from the cert (agreeing that the relative was the investigation, HRM began adding essay
  minimally qualified for the position); however, questions to Quick Hire so that candidates
  the relative was not selected for the position. must explain, in their own words, how they
  HRM did counsel the named HRS, as well meet the specialized experience required for a
  as others in HRM, on the scope of, and need posting.      OIG found no evidence to indicate
  to comply with, the anti-nepotism laws and that a position that warranted a panel did not
  rules.                                          use a panel.


  OIG noted that HRM had an open management Based on the findings of its investigation,
  position during the period in question, that OIG recommended to the Office of Managing
  HRM management provided minimal, if any, Director: (1) that HRM develop and distribute
  oversight of HRS work and that HRM staff a Human Resources Policy Manual and
  appeared to be overworked. OIG also noted specifically address procedures to avoid
  that HRM did not have a policy manual in conflicts of interest; (2) comprehensive training
  place. Other than the nepotism matter, OIG for all the HRSs regardless of HR background
  discovered no evidence of wrong-doing by so that the FCC can ensure that all the HRM
  either HRM or CGB personnel. The decisions employees are aware of FCC specific rules
  made by HRM and CGB appeared appropriate and policies; (3) hiring of an additional HRSs
  and were supported by evidence of record. to ease workload and help with customer

FCC OIG - Semiannual Report to Congress         39               April 1, 2009 - September 30, 2009
                            investigations
service; (4) implement management review of local and federal agencies in these matters.
HRS work in issuing cert lists – and don’t allow These joint and coordinated investigation and
HRM management positions to go unfilled for prosecution efforts, especially those of the
such long periods of time (over two years in DOJ and the FCC and its OIG, have resulted
this case); (5) that the Commission provide in many successes, including civil settlements
Commission-wide training on use of Quick and criminal convictions.              Most of our on-
Hire, explain what is does, how it does it, going universal service investigations are not
and what is required of applicants; (6) HRM known to the public and even some closed
continue to improve the Quick Hire self- investigations cannot be disclosed because
assessment process, by among other actions, of sensitivities that could impact related on-
adding questions to better determine if an going matters, but below we highlight a few
applicant meets the specialized experience; matters that had public developments during
(7) that HRM provide oversight on e-mail the reporting period.
notifications so that applicants don’t have the
need to call HRM asking for status updates;              Dallas Independent School
and (8) that negotiations between the union                   District Settlement
and HRM should be finished and finalized.
                                                  In June 2009, the Dallas Independent School
 Investigations into Fraud in the Federal         District (“DISD”) agreed to settle claims that
        Universal Service Program                 the school district violated the False Claims
                                                  Act in connection with the FCC’s universal
The bulk of the work of FCC OIG Investigations service program.       Under the terms of the
involves investigating and supporting the settlement, the DISD will relinquish more than
civil and criminal prosecution of fraud in $150 million in requests for federal funds, and
the FCC’s federal universal service program. will pay a total of $750,000.
The AIGI and staff work with other state,

   FCC OIG - Semiannual Report to Congress    40                     April 1, 2009 - September 30, 2009
                                  investigations
  The United States alleged that the DISD into potential fraud and competitive bidding
  provided false information to the government violations relating to universal service program
  by engaging in non-competitive bidding funding applications.
  practices for universal service program funded
  contracts. The United States also contended Hansen, who served as the superintendent
  that school district officials improperly received of the Montcalm Area Intermediate School
  gratuities from technology vendors, including District (“MAISD”) from October 1993 to
  trips, meals, golfing and the free use of a yacht. January 1, 2003, was charged with conspiring
  The school district’s former chief technology with the owner of an Internet Service Provider
  officer, Ruben Bohuchot, was convicted in (“ISP”) to sign a three-year Internet service
  July 2008 on bribery charges stemming from contract with the ISP, valued at approximately
  the receipt of federal funds under the FCC’s $1.6 million, in exchange for receipt of $60,000
  universal service program.                        in free goods and services. The conspiratorial
                                                    conduct began in 2001 and ran at least until June
                Bradley J. Hansen                   14, 2004, affecting needy schools throughout
                                                    western Michigan. Hansen was also charged
  In June 2009, a Grand Rapids, Michigan, with obstructing justice in September 2007
  grand jury returned a two-count indictment when he was interviewed regarding universal
  charging Bradley J. Hansen, a former school service program fraud in Michigan.
  superintendent, with engaging in a conspiracy
  to accept a bribe from a vendor and to deprive his The conspiracy charge carries a maximum
  former employer and the citizens of Michigan penalty of five years in prison and a $250,000
  of his honest services in connection with the fine. The obstruction of justice charge carries
  FCC’s federal universal service program. a maximum penalty of 20 years in jail and a
  Hansen was also charged with obstructing $250,000 fine. The maximum fines may be
  justice in relation to the DOJ investigation increased to twice the gain derived from the

FCC OIG - Semiannual Report to Congress            41            April 1, 2009 - September 30, 2009
                            investigations
crime or twice the loss suffered by the victims On April 24, 2008, Mary Jo LaDuron was
of the crime, if either amount is greater than indicted for participating in a conspiracy to
the statutory maximum fine.                    defraud the FCC’s federal universal service
                                               program. Other individuals who were charged
              Mary Jo LaDuron                  in connection with the same conspiracy include
                                               Leonard Douglas LaDuron, as well as two co-
In July 2009, a Kansas woman pleaded guilty conspirators, Benjamin Rowner and Jay H.
to making a false statement to the FBI during Soled. Leonard Douglas LaDuron, Rowner and
an investigation into allegations of fraud Soled have all pleaded guilty to participating
involving the FCC’s federal universal service in the conspiracy, which began in 1999 and
program. According to the plea agreement, ran at least until 2003. All three individuals
Mary Jo LaDuron, a/k/a Mary Jo Gault, of are awaiting sentencing.           Leonard Douglas
Leavenworth, Kansas, lied to FBI agents LaDuron also pleaded guilty to one count of
who were investigating allegations of fraud making a false statement to the Lawrence-
in the universal service program. Mary Jo Douglas County Housing Authority, which
LaDuron worked for Elephantine Corporation administers the Department of Housing and
beginning in 1999 through at least November Urban Authority’s Housing Choice Voucher
2003.   Elephantine was formed and owned Program in Lawrence, Kansas.
by Mary Jo LaDuron’s son, Leonard Douglas
LaDuron. Mary Jo LaDuron lied to FBI agents    Computer Assets Inc., Abraham Salazar,
on March 23, 2006, when she denied knowing                 and Damon Salazar
certain information about Elephantine. Mary
Jo LaDuron’s false statement charge carries a In July 2009, Computer Assets Inc. and its
maximum penalty of five years in prison and principals, Abraham Salazar and Damon
a $250,000 fine.                               Salazar, agreed to pay $350,000 over three years
                                               and surrender up to $35 million in pending

   FCC OIG - Semiannual Report to Congress    42                  April 1, 2009 - September 30, 2009
                                  investigations
  funding applications to settle allegations that Callers who have general questions or concerns
  the company violated the False Claims Act in not specifically related to the missions or
  connection with the FCC’s federal universal functions of the OIG office are referred to the
  service program.                                   FCC Consumer Center at 1-888-225-5322. In
                                                     addition, the OIG also refers calls that do not
  The United States contended that the company fall within its jurisdiction to other entities,
  violated FCC program requirements by such as other FCC offices, federal agencies
  engaging in non-competitive bidding practices and local or state governments. Examples of
  for universal service program funded contracts calls referred to the Consumer Center or other
  with the Kayenta Unified School District in FCC offices include complaints pertaining
  Kayenta, Arizona. Additionally, the United to customers’ phone service and local cable
  States alleged that Computer Assets billed for providers, long-distance carrier slamming,
  installing excess and unnecessary networking interference, or similar matters within the
  cable, and in some instances billed twice for program responsibility of other FCC bureaus
  the same work.                                     and offices.


                  OIG HOTLINE                        During this reporting period, we received
                                                     507 Hotline contacts, with OIG taking action
  During this reporting period, the OIG Hotline on nine of these. The remaining calls were
  technician received numerous calls to the forwarded to the FCC Consumer Center (260
  published hotline numbers of (202) 418-0473 calls) and the Federal Trade Commission (238
  and 1-888-863-2244 (toll free) and                 calls).
  Hotline@fcc.gov. The OIG Hotline continues to
  be a vehicle by which Commission employees
  and parties external to the FCC can contact the
  OIG to speak with a trained Hotline technician.

FCC OIG - Semiannual Report to Congress         43                  April 1, 2009 - September 30, 2009
  reporting requirements of the
      inspector general act

     Reporting Requirements

     table i: oig reports with
        questioned costs

    table II: oig reports with
recommendations that funds be put
          to better use
                reporting requirements
The following summarizes the Office of Inspector General response to the 12 specific reporting require-
ments set forth in Section 5(a) of the Inspector General Act.

1. A description of significant problems, abuses, and deficiencies relating to the administration of pro-
grams and operations of such establishment disclosed by such activities during the reporting period.

Please refer to the sections of this report titled “Universal Service Fund Oversight” and “Investiga-
tions.”

2. A description of the recommendations for corrective action made by the Office during the reporting
period with respect to significant problems, abused, or deficiencies identified pursuant to paragraph (1).

Please refer to the sections of this report titled “Universal Service Fund Oversight” and “Investiga-
tions.”

3. An identification of each significant recommendation described in previous semiannual reports on
which corrective action has not yet been completed.

Except as noted above, no significant recommendations remain outstanding.

4. A summary of matters referred to authorities, and the prosecutions and convictions which have re-
sulted.

Please refer to the section of this report titled “Investigations.”

5. A summary of each report made to the head of the establishment under section (6) (b) (2) during the
reporting period.

No report was made to the Chairman of the FCC under section (6) (b) (2) during this reporting period.

6. A listing, subdivided according to subject matter, of each audit report issued by the Office during the
reporting period, and for each audit report, where applicable, the total dollar value of questioned costs
(including a separate category for the dollar value of unsupported costs) and the dollar value of recom-
mendations that funds be put to better use.

Each audit report issued during the reporting period is listed according to subject matter and described
in the “Audit Areas” section and in Tables I and II of this report.

7. A summary of each particularly significant report.


    FCC OIG - Semiannual Report to Congress               46                April 1, 2009 - September 30, 2009
                     reporting requirements
  Each significant audit and investigative report issued during the reporting period is summarized
  within the audits and investigations sections and in Tables I and II of this report.

  8. Statistical tables showing the total number of audit reports with questioned costs and the total dollar
  value of questioned costs.

  The required statistical table can be found at Table I to this report.

  9. Statistical tables showing the total number of audit reports with recommendations that funds be put
  to better use and the total dollar value of such recommendations.

  The required statistical table can be found at Table II to this report and in the section captioned “Uni-
  versal Service Fund.”

  10. A summary of each audit report issued before the commencement of the reporting period for which
  no management decision has been made by the end of the reporting period (including the date and title
  of each such report), an explanation of the reasons why such a management decision has not been made,
  and a statement concerning the desired timetable for achieving a management decision on each such
  report.

  No audit reports fall within this category.

  11. A description and explanation of the reasons for any significant revised management decision made
  during the reporting period.

  No management decisions fall within this category.

  12. Information concerning any significant management decision with which the Inspector General is
  in disagreement.

  No management decisions fall within this category.

  13. Information described under section 05(b) of the Federal Financial Management Improvement Act
  of 1996.

  No reports with this information have been issued during this reporting period.




FCC OIG - Semiannual Report to Congress                 47                 April 1, 2009 - September 30, 2009
             reporting requirements
                    Table I: OIG Reports With Questioned Costs
                                                         Number of    Questioned     Unsupported
Inspector General Reports With Questioned Costs
                                                          Reports       Costs           Costs
A. For which no management decision has been
                                                             _             _                  _
made by the commencement of the reporting period.

B. Which were issued during the reporting period.            _             _                  _

C. For which a management decision was made
                                                             _             _                  _
during the reporting period.

(i) Dollar value of disallowed costs                         _             _                  _

(ii) Dollar value of costs not disallowed                    _             _                  _

D. For which no management decision has been
                                                             _             _                  _
made by the end of the reporting period.

Reports for which no management decision was
                                                             _             _                  _
made within six months of issuance.

                   Table II: OIG Reports With Recommendations
                           That Funds Be Put To Better Use
Inspector General Reports With Recommendations
                                                          Number of Reports         Dollar Value
That Funds Be Put To Better Use
A. For which no management decision has been
                                                                  _                       _
made by the commencement of the reporting period.
B. Which were issued during the reporting period.                 _                       _
C. For which a management decision was made
                                                                  _                       _
during the reporting period.

(i) Dollar value of disallowed costs                              _                       _

(ii) Dollar value of costs not disallowed                         _                       _
D. For which no management decision has been
                                                                  _                       _
made by the end of the reporting period.

Reports for which no management decision was
                                                                  _                       _
made within six months of issuance.


 FCC OIG - Semiannual Report to Congress            48                April 1, 2009 - September 30, 2009
                                                               Report Fraud, Waste or Abuse to:



                                                                                  Email
                                                                                  Hotline@FCC.gov

                                                                                  Call Hotline:
                                                                                  202.418.0473 or
                                                                                  888.863.2244




                                                                                  www.FCC.gov


           The Federal Communications Commission
                         (left to right)
Mignon Clyburn, Commissioner; Michael J. Copps, Commissioner
     Julius Genachowski, Chairman; Robert M. McDowell,
    Commissioner, Meredith Attwell Baker, Commissioner
                                                   Office of Inspector General

                                                   Federal
                                                   Communications
                                                   Commission




                                        Semiannual Report to Congress
    Office of Inspector General
Federal Communications Commission
          Portals II Building       April 1, 2009 through September 30, 2009
   445 12th St., S.W. Room 2-C762
